  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
  General, DoD, Home Page at: WWW.DODIG.OSD.MIL.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Planning and
  Coordination Branch of the Analysis, Planning, and Technical Support Directorate at
  (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests
  can also be mailed to:

                      OAIG-AUD (ATTN: APTS Audit Suggestions)
                      Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                      Arlington, Virginia 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@DODIG.OSD.MIL; or
  by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms

OCLL                  Office of the Chief of Legislative Liaison
TRADOC                Training and Doctrine Command
                         Office of the Inspector General, DoD
Report No. 98-183                                                          August 7, 1998
 (Project No. 7RD-5016.01)

           Training and Doctrine Command Services and Support
             Provided to Members and Employees of Congress

                                 Executive Summary

Introduction. The audit was performed in response to two congressional requests
concerning the assignment of military officers and civilian employees to work for
Congress, and the use of Army training facilities and services by congressional members
and staff. This report addresses 49 trips made by congressional delegations to meet with
Army Training and Doctrine Command headquarters personnel from 1993 through 1997.

Audit Objectives. The primary audit objective was to determine whether the Army
Training and Doctrine Command provided personnel, facilities, and services to train
congressional members and employees in accordance with DoD policies and procedures.
In addition, we assessed DoD management controls, practices, and procedures for
providing congressional travel support.

Our response to congressional concerns regarding DoD policies and procedures for
assigning military and civilian personnel to Congress is in Inspector General, DoD, Report
No. 97-186, "Review of Military and Civilian Personnel Assignments to Congress,"
July 14, 1997.

A separate response addresses congressional concerns about the duties performed and
responsibilities that DoD personnel held on congressional assignment and whether DoD
personnel assigned to Congress had engaged in partisan political activity. Our review of
those issues involved interviewing the DoD individuals that we identified as assigned to
Congress during FY 1996.

Audit Results. Our analysis of 49 congressional trips to headquarters, Training and
Doctrine Command, from 1993 through 1997 determined the following:

            • 44 congressional visits were for routine oversight and orientation briefings
normally provided to visiting congressional members and others on a nonreimbursable
basis, and

            • the Army incurred costs of about $15,000 for 5 congressional visits that
primarily provided training in strategic planning and other organizational concepts for
congressional members and staffs and that we believe should have been provided on a
reimbursable basis.

DoD Directive 4515.12, "Department of Defense Support for Travel of Members and
Employees of the Congress," December 1964, requires DoD Components to assess the
purpose of planned congressional visits and to ascertain whether reimbursement is
appropriate before the visits are arranged. In five instances, the Army inappropriately
provided nonreimbursable support for congressional members and their staffs to receive
training because Army personnel did not properly assess the purpose of congressional
travel requests to determine who should have funded the visits to the Training and
Doctrine Command before incurring nonreimbursed travel and support costs. According
to interviews with responsible officials, no formal procedures within the Army required
such assessments, and the Army was unable to document that the assessments were made,
where required, for any of the 49 trips we reviewed.

Summary of Recommendations. We recommend that the Army implement existing
DoD policies governing requests for DoD travel support from members and employees of
Congress and establish procedures for better management controls over review and
approval of travel requests.

Management Comments. The Office of the Chief of Legislative Liaison, Department of
the Army, concurred with the recommendations. He affirmed that the current procedures
of the Army fully comply with the guidance contained in DoD Directive 4515.12 when
reviewing and approving nonsponsored and sponsored nonreimbursable travel requests.
In addition, the Chief of Legislative Liaison briefs the Secretary of the Army weekly on all
proposed travel. The Office of the Chief of Legislative Liaison distributes a weekly travel
report listing all proposed travel for members and their employees to the Office of the
Secretary of Defense and the Secretary of the Army. See Part I for a summary of
management comments and Part III for the complete text of the comments.




                                             ii
Table of Contents
Executive Summary                                                           i

Part I - Audit Results
      Audit Background                                                      2
      Audit Objectives                                                      3
      DoD Support for Congressional Travel to TRADOC Facilities             4

Part II - Additional Information
      Appendix A. Audit Process
        Audit Scope                                                        16
        Audit Methodology                                                  17
        Prior Audits and Other Reviews                                     18
        Management Control Program                                         18
      Appendix B. Congressional Correspondence                             19
      Appendix C. Congressional Visits                                     23
      Appendix D. TRADOC Briefing Charts Used for Training on Principles
                    of Doctrine Development and Operational Art            34
      Appendix E. Training and Doctrine Command Electronic Message         50
      Appendix F. March 1996 Memorandum                                    51
      Appendix G. House Republican Strategic Framework Document            52
      Appendix H. Army Costs for Congressional Visits                      64
      Appendix I. Report Distribution                                      65

Part III - Management Comments
      Department of the Army Comments                                      68
Part I - Audit Results
Audit Background
    On October 22, 1996, Representatives Patricia Schroeder (D-Colorado), Esteban
    Torres (D-California), George Miller (D-California), David Minge (D-Minnesota),
    and Barney Frank (D-Massachusetts) requested that the Inspector General, DoD,
    investigate the recruitment and assignment of DoD personnel working for the
    Speaker of the House, Newt Gingrich, and to review the House Speaker's use of
    Army personnel and facilities to train congressional members and employees. The
    representatives were specifically concerned about the Speaker's use of Army
    Training and Doctrine Command (TRADOC) services. The representatives also
    requested that the Inspector General examine the policies and procedures
    governing personnel assignments to Congress and DoD support for congressional
    training. The representatives expressed concerns about whether the assignment of
    DoD personnel to Congress was proper and whether DoD personnel had engaged
    in partisan political activity. On November 1, 1996, Senator Charles E. Grassley
    (R-Iowa) endorsed the representatives' request and requested that our review
    include an examination of the policies and procedures governing DoD personnel
    assignments to Congress. See Appendix B for the congressional correspondence.

    In the report accompanying the Senate's version of the National Defense
    Authorization Act for FY 1997, the Senate Armed Services Committee expressed
    concern about the increase in the number of Military Department personnel
    working for Congress. The Committee directed the Secretary of Defense to
    review how legislative fellowship programs and details are managed and to report
    to the Committee by May 1, 1997. In response to the Committee's request, the
    Assistant Secretary of Defense (Force Management Policy) directed the Military
    Departments and Defense agencies to identify the personnel assigned to Congress
    during FY 1996.

    Our response to congressional concerns regarding DoD policies and procedures
    for assigning military and civilian personnel to Congress is in Inspector General,
    DoD, Report No. 97-186, "Review of Military and Civilian Personnel Assignments
    to Congress," July 14, 1997.

    This audit report addresses congressional concerns regarding the use of Army
    personnel, facilities, and services to train members and employees of Congress at
    TRADOC. Accordingly, we identified 49 trips made by congressional delegations
    to meet with headquarters, TRADOC, personnel from 1993 through 1997.

    A separate response addresses congressional concerns about the duties performed
    and responsibilities that DoD personnel held on congressional assignment and
    whether DoD personnel assigned to Congress had engaged in partisan political
    activity. Our review of those issues involved interviewing the individuals that we
    identified as assigned to Congress during FY 1996.




                                         2
Audit Objectives
    The audit objective was to determine whether TRADOC provided personnel,
    facilities, and services to train congressional members and employees in
    accordance with DoD policies and procedures. In addition, we assessed DoD
    management controls, practices, and procedures for providing congressional travel
    support. Appendix A discusses the audit scope and methodology and the results
    of the management control program review.




                                        3
           DoD Support for Congressional Travel to
           TRADOC Facilities
           Our analysis of 49 congressional trips to TRADOC facilities from 1993
           through 1997 determined the following:

                   •       44 congressional visits were for routine oversight and
           orientation briefings normally provided to visiting congressional members
           and others on a nonreimbursable basis, and

                  •       the Army incurred costs of about $15,000 for
           5 congressional visits that primarily provided training in strategic planning
           and other organizational concepts for congressional members and staffs
           and that we believe should have been provided on a reimbursable basis.

           In five instances, the Army inappropriately provided nonreimbursable
           support for congressional members and their staffs to receive training
           because the Army did not effectively implement policy or establish
           procedures to ensure that support for congressional travel was in
           accordance with DoD Directive 4515.12, "Department of Defense Support
           for Travel of Members and Employees of the Congress," December 1964.
           Specifically, Army personnel did not properly assess the purpose of
           congressional travel requests to determine who should have funded the
           visits before incurring nonreimbursable travel and support costs.
           According to interviews with responsible officials, no formal procedures
           within the Army required such assessments, and the Army could not
           document that they were made, where required, for the 49 trips that we
           reviewed.


DoD Guidance on Support for Congressional Travel
    DoD Directive 4515.12. DoD Directive 4515.12 prescribes DoD policy regarding
    transportation support for members and employees of Congress. The Directive
    also prescribes procedures and assigns responsibility for approving and
    coordinating requests for transportation from members and employees of
    Congress.

            Policy. DoD Directive 4515.12 states that DoD will provide support for
    congressional travel "upon request of the Congress pursuant to law or where
    necessary to carry out the duties and responsibilities of the DoD." In the first case,
    the travel is considered to be nonsponsored and nonreimbursable. In the latter
    case, the travel is considered to be sponsored, nonreimbursable travel. The
    Directive further states that DoD will sponsor congressional travel "only where the
    purpose of the travel is of primary interest to, and bears a substantial relationship
    to programs or activities of the DoD." The Directive assigns responsibility for
    assuring compliance with policy and procedures to the Assistant Secretary of
    Defense (Legislative Affairs).


                                          4
                               DoD Support for Congressional Travel to TRADOC Facilities

    Among the policy considerations for supporting the travel of members and
    employees of Congress are:

           •       the necessity for presenting the legislative program of DoD and for
    responding to inquiries and investigations of Congress;

           •       the contribution that DoD support may make to the Defense effort
    and the exercise of congressional responsibilities with respect to that effort; and

           •       prudent use of DoD transportation resources.

    The Directive also includes travel for the purpose of orientation or familiarization
    with the programs and activities of the Department (for either new or longstanding
    members of Congress and their staffs) as an example of a permissible type of
    sponsored, nonreimbursable travel. In practice, the sponsorship extends both to
    the travel costs and to the expenses of the orientation or familiarization program.

             Procedures. DoD Directive 4515.12 states that DoD may provide
    nonreimbursable support1 for congressional travel, which involves the use of
    military transportation, as a result of an official request by Congress to DoD or by
    an official invitation extended by the Secretary of Defense or by the Secretaries of
    the Military Departments. Nonsponsored travel is travel authorized as a result of
    an official request by Congress to DoD. Sponsored travel is travel authorized as a
    result of an official invitation issued by the Secretary of Defense or the Secretaries
    of the Military Departments. The DoD may support congressional travel on a
    reimbursable basis when the travel is of official concern to Congress. The
    Directive states that DoD will grant nonsponsored, nonreimbursable congressional
    requests for DoD travel support when the written request is submitted over the
    signature of a committee chairman, indicates the individuals and itinerary involved,
    and states that the purpose of the travel is of primary interest to DoD, and that
    expenditure of funds is authorized by Title 31, United States Code, Section 22a
    (now 31 U.S.C. 1108(g)) or other provision of law. Further, only the Secretary of
    Defense or the Secretaries of the Military Departments may extend official
    invitations for sponsored congressional travel to DoD facilities, and those
    invitations will be nonreimbursable "subject to such limitations necessary to carry
    out the policies stated in this Directive as the Secretary of Defense may from time
    to time prescribe."


Training and Doctrine Command
    The TRADOC is one of 14 major Army commands. The TRADOC mission is to
    prepare the Army for war, design America's Army for the future, and ensure the
    TRADOC capability to execute its mission. The TRADOC is responsible to train,




    1
     The Directive defines nonreimbursable DoD support as travel costs that are borne
    by the DoD Component concerned.


                                          5
DoD Support for Congressional Travel to TRADOC Facilities

       establish doctrine, and provide combat development for the Army. Headquarters,
       TRADOC, Fort Monroe, Virginia, oversees 27 training facilities nationwide. The
       TRADOC personnel stated that training courses are not held at headquarters,
       TRADOC.


Congressional Visits to TRADOC Facilities
       Congressional members, their staff, professional staff members, and others made
       49 trips to meet with Headquarters, TRADOC, personnel from February 1993
       through June 1997 (see Appendix C for details on each of the 49 visits). The
       Army did not effectively implement DoD policy governing congressional travel
       support on 5 of those 49 congressional visits because the Army provided
       sponsored, nonreimbursable travel support for congressional delegations to receive
       training at Army facilities without determining whether the purpose was of primary
       interest to and bore a substantial relationship to DoD programs or activities. DoD
       Directive 4515.12 states that the Department may provide sponsored,
       nonreimbursable congressional travel support only when the purpose of the travel
       is of primary interest to DoD programs or activities.

       Visiting Congressional Delegations Received Training. We analyzed internal
       TRADOC documentation and determined that during 5 of the 49 congressional
       visits, the congressional delegations received training on principles of doctrine
       development, information management, and organizational staffing. The Office of
       the Speaker of the House requested the visits for the congressional members, their
       staff, and others to obtain the training from TRADOC personnel. The Army
       provided sponsored, nonreimbursable travel, training support, or both for those
       five congressional training seminars. Because the Army Office of the Chief of
       Legislative Liaison (OCLL) did not retain travel records for four of the trips (one
       trip did not require travel support), we could not document whether the Army
       assessed the travel requests to determine whether nonreimbursable travel support
       was appropriate. Interviews with responsible OCLL officials determined that no
       formal procedures within the Army required such assessments. Our analyses of
       internal TRADOC documentation and interviews of TRADOC personnel indicated
       that the visits primarily provided training seminars for the congressional
       delegations, and the seminars did not appear to be related to normal congressional
       oversight issues or of primary interest to a DoD operation, program, policy, or
       budget item. See Appendix C for examples of visits that are related to normal
       congressional oversight issues.

               •     Three congressional training seminars took place at headquarters,
       TRADOC, in March 1995 (attended by two congressional staff members), in
       August 1995 (attended by one Representative, six staffers, the Executive Director
       of the House Republican Conference, and the president of the




                                            6
                          DoD Support for Congressional Travel to TRADOC Facilities

Congressional Institute2), and in November 1995 (attended by five
Representatives, four staff members, and the president of the Congressional
Institute).

        •       Headquarters, TRADOC, personnel conducted one congressional
training seminar at a TRADOC facility at Fort Leavenworth, Kansas, in April 1995
(attended by five staff members).

        •      Headquarters, TRADOC, personnel conducted 1 congressional
training seminar at Fort McNair, Washington, D.C., in March 1996 (attended by 1
Representative and 18 staff members).

Orientation and familiarization travel and briefings are often provided by the DoD
to members and employees of Congress on a non-reimbursable basis when such
activities are related to presenting the DoD legislative program, responding to
congressional inquiries and investigations, and assisting Congress in the exercise of
its responsibilities with respect to the Defense effort (see Appendix C for
examples). However, in five visits, our review found different purposes for the
information sought and an educational process that included briefings and practical
exercises geared to the application of military concepts to congressional and
political organizations and operations.

The five congressional visits to Army facilities were to receive training on
TRADOC chief of staff functions and principles of information management,
operational art of war, doctrine development, and staff organization. The nature
of the briefings and details regarding each visit follow.

       Chief of Staff Functions and Information Management. In March and
April 1995, TRADOC personnel provided training to employees of Congress on
TRADOC chief of staff functions and principles of information management.

                 March 1995 Congressional Visit to Headquarters, TRADOC.
In March 1995, TRADOC personnel provided training to the House Speaker's
chief of staff and special assistant on TRADOC chief of staff functions and
principles of information management. The TRADOC Assistant Chief of Staff and
the Fort Eustis Chief of Staff presented briefings regarding TRADOC chief of staff
information management methods for disseminating information, methods of
obtaining feedback and distributing tasks and ways to share ideas, and the use of
automation to facilitate the exchange of information among staff members. A
February 1995 internal memorandum from TRADOC congressional liaison
personnel states that "[Speaker] Gingrich wants to automate/link all House offices"
and that the Speaker wanted to review the Army mode of operations. Briefing
charts used for the chief of staff training segment addressed TRADOC-specific
chief of staff duties, supporting objectives, structure, and staff processes. A
briefing chart used for the information management training segment stated that
the focus of the training was management techniques and tools including

2
 The Congressional Institute is a not-for-profit corporation established in 1987 to
assist members of Congress in organization and education for their intellectual and
social benefit and to provide educational information about Congress to the
general public.

                                      7
DoD Support for Congressional Travel to TRADOC Facilities

       information sharing, goals, integration, and teamwork. Other briefing charts
       addressed using information management to achieve organizational objectives and
       explaining the elements and systems that comprise the TRADOC communication
       process. Our analysis of internal TRADOC documentation and interviews of
       TRADOC personnel indicated that the visit primarily provided a training seminar
       for the congressional delegation and did not appear to be related to normal
       congressional oversight issues or to be of primary relevance to a DoD operation,
       program, policy, or budget item.

                        April 1995 Congressional Visit to TRADOC Facility. In April
       1995, the House Speaker's chief of staff, the chief of staff's executive assistant, an
       advisor to the Speaker, and two special assistants visited the TRADOC facility at
       Fort Leavenworth to receive training on principles of information management.
       The TRADOC personnel provided the Speaker's staff with briefings on the battle
       command battle laboratory3 and on strategic thinking. TRADOC personnel stated
       that the battle command battle laboratory briefings were similar to the March 1995
       training on information management principles. However, the April training was
       more tailored to an operational level for the staff of the Speaker's chief of staff.
       Briefing topics included Army communication methods and use of automated
       methods among staffs. Strategic thinking briefings presented TRADOC methods
       for developing goals and obtaining objectives. Briefing charts used for the battle
       command training segment define battle command as "the art of battle decision
       making, leading, and motivating soldiers and their organizations into action to
       accomplish missions." Another briefing chart states that the battle command battle
       laboratory mission is to "integrate information technology, doctrine, leader
       development, training and organizational systems to improve the art of command
       and flow of timely, accurate and relevant information to commanders and their
       support teams." Our analysis of internal TRADOC documentation and interviews
       of TRADOC personnel indicated that the visit primarily provided a training
       seminar for the congressional delegation and did not appear to be related to normal
       congressional oversight issues or of primary interest to a DoD operation, program,
       policy, or budget item.

              Operational Art of War, Doctrine Development, and Staff
       Organization. In August and November 1995 and in March 1996, TRADOC
       personnel provided training to Republican members and employees of Congress
       regarding principles of operational art of war, doctrine development, and staff
       organization. See Appendix D for TRADOC briefing charts used to train the
       congressional delegations on the principles of operational art of war and doctrine
       development.

                     August 1995 Congressional Visit to Headquarters,
       TRADOC. In August 1995, TRADOC personnel provided training to
       Representative Peter Hoekstra (R-Michigan), six members of Republican




       3
        Battle command battle laboratories are established for higher headquarters
       organizations to experiment with changing methods of warfare to maintain the
       edge of the Army on the battlefield.


                                             8
                               DoD Support for Congressional Travel to TRADOC Facilities

congressional staffs, the Executive Director of the House Republican Conference4,
and the president of the Congressional Institute on principles of doctrine
development and the operational art of war. Internal TRADOC documentation for
the August 1995 visit states that the "group attending represents Speaker
Gingrich's 'Majority Planning Group' that the Speaker wants to act as a TRADOC"
[by emulating good management practices of the Army]. A visit itinerary
documented the purpose of the congressional training as "seminars on how
TRADOC develops concepts, writes doctrine, and forms strategic plans."
TRADOC congressional liaison personnel explained that the training segment on
doctrine development addressed TRADOC plans and strategies to win wars
through the development of goals, strategies, and tactics. The training segment on
operational art addressed the development of Army operational requirements
necessary to implement established doctrine.

               November 1995 Congressional Visit to Headquarters,
TRADOC. In November 1995, Representative Hoekstra returned to
headquarters, TRADOC, with four Republican members of Congress
(Representatives Christopher Shays [R-Connecticut], James M. Talent
[R-Missouri], John D. Hayworth [R-Arizona], and Sue Myrick [R-North
Carolina]), four members of Republican congressional staffs, and the president of
the Congressional Institute. Internal TRADOC documentation states that the
November 1995 congressional visit was a follow-on to the August 1995 visit and
that the purpose of the visits was the same. A December 1995 internal TRADOC
electronic message acknowledged concern about the partisan nature of the
November 1995 visit and states that

           [Representative] Hoekstra has evidently been tasked by [the House Speaker] to put
           flesh on a strategy/doctrine function in the House and . . . . that he's going to (1)
           try to get the Speaker and his key leadership down here . . . to work the
           doctrine/strategy issue on site, and (2) they're going to suggest expanding this to
           the Senate Republicans.

See Appendix E for the full text of the electronic message.

                 March 1996 Congressional Visit to Fort McNair. In March
1996, Representative Jim Kolbe (R-Arizona) visited the National Defense
University at Fort McNair, Washington, D.C., with 18 members of his staff (chief
of staff, special assistant, legislative director, executive assistant, 3 legislative
assistants, campaign manager, system manager, field director, district office
manager, district director, district aide/scheduler, and 5 district aides). While the
Army did not pay the costs of the congressional travel in this case, TRADOC
personnel traveled to Fort McNair to provide the training to the members and
employees of Congress on the principles of operational art of war, doctrine
development, and staff organization. In a March 1996 memorandum to the
Administrative Assistant to the Secretary of the Army, the Army OCLL describes
the pending March 1996 congressional visit as one where "TRADOC trains

4
 The House Republican Conference, an official party organization of the House,
provides support services to assist Republican Members and their staffs in the
conduct of their work. Support services include training sessions and other
resources to improve efficiency in their offices.

                                               9
DoD Support for Congressional Travel to TRADOC Facilities

       Members of Congress and their staffs in strategic (long-range) planning" (see
       Appendix F for the full text of the memorandum). The training addressed Army
       doctrine development and TRADOC plans and strategies to win wars through the
       development of goals, strategies, and tactics. During Representative Kolbe's
       March 1996 visit, TRADOC personnel provided additional training on staff
       organization. Briefing topics included military staff organization and delegating
       military authority and responsibility.

                        TRADOC Personnel Efforts to Deliver Nonpartisan Training
       Perspective. During our interviews with TRADOC personnel, they acknowledged
       their initial concerns about the partisan nature of those three visits and stated that
       they took care not to engage in or give the appearance of engaging in political
       activity. One TRADOC instructor noted that he had reservations about providing
       training to congressional delegations that had only Republican representation
       because the Army might appear to be involved in politics. The instructor added
       that Army personnel wore their uniforms to emphasize the point that the training
       was on Army procedures and operational art. Also, the TRADOC instructor
       stated that he made it clear to the congressional visitors that the briefings included
       in the training seminars were a nonpartisan reflection of how the Army follows
       operational art in the Services. He stated that his discussions did not stray into
       politics and that he did not use what he was teaching in a partisan political manner.

                       Training Seminars Included Practical Exercises. The TRADOC
       OCLL personnel stated that at the end of each of the August and November 1995
       and March 1996 sessions, the congressional delegations participated in a practical
       exercise to demonstrate an understanding of the concepts that they had been
       taught. The instructor stated that although he could not remember what issues
       were addressed during the practical exercises, they were not partisan in nature.
       Representative Kolbe's OCLL military escort to the March 1996 training session
       witnessed the practical exercise and stated that although he could not remember
       the issue addressed during the practical exercise, he did remember that it was
       related to the everyday administrative responsibilities of the congressional office
       staff and not to partisan issues. The instructor stated that the practical exercises
       were facilitated by a member of the congressional delegation and not by TRADOC
       personnel (he could not recall with certainty who facilitated the August 1995
       practical exercise). Therefore, although we believe that the seminars that
       TRADOC personnel conducted in August and November 1995 and March 1996
       primarily provided training for the congressional delegations and did not relate to
       normal congressional oversight issues, we found no evidence that TRADOC
       personnel addressed partisan issues in their briefings.

                       House Republican Strategic Framework Document. TRADOC
       personnel stated that the House Speaker's staff had prepared a draft House
       Republican Strategic Framework Document, which was present at some of the
       training seminars. TRADOC personnel stated that although congressional visitors
       brought the document to TRADOC and gave it to TRADOC personnel, TRADOC
       personnel did not edit or attempt to improve the document. The training instructor
       recalled that the Speaker's staff brought the House Republican Strategic
       Framework Document to TRADOC when they visited to discuss the objectives of
       the planned training sessions and when they attended the August 1995 training
       session. The instructor remembered reading and discussing the document, but he
       did not remember what he said about it. He stated that no one at TRADOC


                                            10
                          DoD Support for Congressional Travel to TRADOC Facilities

worked on the document. The TRADOC congressional liaison representative
recalled seeing the document at the November 1995 training session but did not
read it. The TRADOC instructor and the congressional liaison personnel stated
that they did not provide any form of feedback to the congressional delegations on
the House Republican Strategic Framework Document. See Appendix G for the
version of the House Republican Strategic Framework Document in use at the
seminar. We do not know how the document was used or whether it was ever
completed, but we found no evidence that TRADOC personnel had written or
edited the document.

Routine Oversight and Orientation Briefings. During 44 of the
49 congressional visits, the congressional delegations received routine oversight
and orientation briefings normally provided to visiting congressional members and
others on a nonreimbursable basis. Specifically, we analyzed internal TRADOC
documentation and determined the purpose of the 44 congressional visits as
follows:

        •       members of Congress, of both political parties, and their aides made
24 visits to headquarters, TRADOC, to receive routine oversight briefings and
updates on the Joint Warfighting Center, Defense Base Closure and Realignment,
Battle Laboratories, Force XXI operations, Army After Next study group, and
other Army programs and TRADOC initiatives. Professional staff members made
15 visits to headquarters, TRADOC, to receive those and other similar briefings;

         •      new professional staff members and congressional aides made
4 visits to headquarters, TRADOC, to receive orientation briefings on TRADOC
programs and initiatives; and

       •      one member of Congress visited headquarters, TRADOC, in
February 1994 as a guest speaker for an American Black History Month event.

Although the Army regulations require the retention of congressional travel for
only 12 months, the Army OCLL could not provide complete documentation for
32 of those 44 congressional travel requests. Army records retained for 12 of the
congressional visits indicated the following:

       •       6 of the visits were requested in writing by chairmen of
congressional committees in accordance with DoD policy, and

       •      the Army had not assessed whether travel on a nonreimbursable
basis was appropriate for the remaining 6 visits.

In the six adequately documented cases of sponsored, nonreimbursable travel, we
concluded that the Army did not formally determine whether the purpose of the
congressional travel requests met DoD requirements for such travel before
incurring the expense. Further, our interviews of responsible OCLL personnel led
us to conclude that no formal mechanism was in place for routinely making such
assessments. However, TRADOC personnel characterized the briefings provided
during those 44 visits as routine oversight and orientation briefings on TRADOC
initiatives normally provided to visiting congressional members and others. We
agreed, and accordingly concluded that the conditions under which DoD spent
funds for those trips were consistent with DoD policies.

                                    11
DoD Support for Congressional Travel to TRADOC Facilities

DoD Costs Associated With Congressional Training Visits
       Although the Army routinely paid the travel and other costs of congressional visits
       to headquarters, TRADOC, we did not assess or estimate the costs associated with
       44 of 49 congressional visits because they appeared, at face value, to be
       appropriate. However, we did accumulate estimates on the travel and other costs
       for congressional members and employees to receive training from TRADOC
       personnel on five occasions from 1993 through 1997. A summary of the estimated
       costs for all five visits follows.


                         Costs Associated With Congressional Visits

                                                                    Estimated
                        Type of Cost                                 Amount

                  Congressional travel to DoD facilities            $ 9,162
                  Training costs, including salaries                  2,760
                  Lodging costs                                       1,457
                  Meals                                               1,509
                  Other                                                 298
                    Total                                           $15,186

       The Army OCLL and headquarters, TRADOC, provided the cost estimates. We
       used those Army cost estimates because the Army did not retain information on
       the actual costs for trips more than 1 year old. See Appendix H for expense details
       for each visit and the bases for the estimates.


Management Controls for Congressional Requests for DoD
Travel Support
       The Army OCLL did not effectively implement policies or establish procedures to
       ensure that Army support for congressional travel was in accordance with DoD
       Directive 4515.12.

       Travel Records. Army OCLL personnel could not provide travel records for 36
       of the 49 congressional visits to Army facilities because such records were not
       retained for more than 1 year (and in one case, no congressional support was
       provided). As a result, we were not able to review documentation on travel
       approval, travel justification, and transportation expenses for any of the five
       congressional visits with which we had concerns (the March 1996 trip to Fort
       McNair was the visit that did not require DoD travel support, but some other
       supporting documentation was available for review). As previously discussed in
       this report, we interviewed Army OCLL staff to determine their procedures for
       approving and documenting congressional travel support because Army OCLL did
       not have those procedures documented.




                                           12
                               DoD Support for Congressional Travel to TRADOC Facilities

    Requirements for Written Requests. Personnel in the Army OCLL stated that
    regardless of whether travel is sponsored or nonsponsored travel, they generally do
    not receive written requests from members and employees of Congress for DoD
    support for travel to an Army location. Such requests are generally made orally
    and informally. DoD Directive 4515.12 states that requests must be "submitted in
    writing to the Secretary of Defense over the signature of the Chairman of the
    congressional committee on which the member or employee serves." In addition,
    the Directive states that the written request must name the individuals who will be
    traveling, state the itinerary to be followed, state that the purpose of the travel is of
    primary interest to DoD, and that the expenditure of funds by DoD is authorized
    by 31 U.S.C. 1108(g) or other provision of law.

    Army OCLL personnel indicated that they use the following three options for
    determining travel sponsorship: committee-directed sponsorship5, Office of the
    Secretary of Defense invitation sponsorship, and Secretary of the Army invitation
    sponsorship. Requests from members and employees of Congress for DoD
    support for travel to an Army location are routinely documented and approved by
    Army OCLL personnel as sponsored by a Secretary of the Army invitation. By
    classifying all congressional requests for travel into one of those categories, the
    Army bypassed assessing the purpose of the travel, a factor necessary for
    determining whether sponsored travel support should be reimbursable or
    nonreimbursable. That factor was particularly applicable to congressional requests
    (written or verbal) that were routinely categorized as invitations by the Secretary
    of the Army. The Army funds the use of military aircraft and ground
    transportation, the use of military lodging, and actual and necessary expenses
    associated with Secretary of the Army invitations for congressional travel. DoD
    policy does not prohibit converting congressional travel requests into sponsored
    invitations; however, sponsored invitations must comply with DoD requirements
    to assess whether travel support should be provided on a reimbursable or
    nonreimbursable basis. The Army OCLL approved and funded DoD support for
    congressional travel requests that were not submitted in writing or signed by a
    congressional committee chairman, and that did not comply with DoD Directive
    4515.12 requirements to assess whether nonreimbursable travel support was
    appropriate.


Recommendations and Management Comments
    We recommend that the Army Chief of Legislative Liaison implement
    existing DoD policies governing requests for DoD travel support from
    members and employees of Congress and establish procedures to ensure that:

          1. The Army approves requests for nonsponsored, nonreimbursable
    DoD travel support only when requests are written, are signed by a
    committee chairman, and contain the information prescribed by DoD


    5
     Committee-directed sponsorship is nonreimbursable travel support formally
    requested by a committee under a chairman's signature. DoD Directive 4515.12
    states that those requests are unsponsored travel.

                                           13
DoD Support for Congressional Travel to TRADOC Facilities

       Directive 4515.12, "Department of Defense Support for Travel of Members
       and Employees of the Congress," December 1964.

              2. Congressional requests for DoD travel support that are treated as
       sponsored nonreimbursable travel invitations are carefully reviewed to
       ensure that such travel support meets all the criteria of DoD Directive
       4515.12, "Department of Defense Support for Travel of Members and
       Employees of the Congress," December 1964.

       Management Comments. The Office of the Chief of Legislative Liaison,
       Department of the Army, concurred with the recommendations. He affirmed that
       the current procedures of the Army fully comply with the guidance contained in
       DoD Directive 4515.12 when reviewing and approving nonsponsored and
       sponsored nonreimbursable travel requests. In addition, the Chief of Legislative
       Liaison briefs the Secretary of the Army weekly on all proposed travel. The Office
       of the Chief of Legislative Liaison distributes a weekly travel report listing all
       proposed travel for members and their employees to the Office of the Secretary of
       Defense and the Secretary of the Army.




                                           14
Part II - Additional Information
Appendix A. Audit Process

Audit Scope
    We reviewed headquarters, TRADOC, personnel, facilities, and services used to
    train members and employees of Congress and others from 1993 through 1997.
    We also reviewed DoD policies and procedures for providing support for
    congressional travel.

    Limitations to Audit Scope. We reviewed all 49 visits to headquarters, TRADOC,
    that congressional members and employees made from 1993 through 1997. We
    included in our scope two trips that congressional delegations made to meet with
    headquarters, TRADOC, personnel at Fort Leavenworth and Fort McNair. We
    did not review congressional visits to other Army organizations or TRADOC
    facilities. In addition, we did not interview congressional members or employees.

    Because documentation was unavailable for 37 of the 49 visits, we did not attempt
    to estimate or reconstruct travel and other support expenses for the
    44 congressional visits that were made for routine oversight and orientation
    briefings on a nonreimbursable basis.

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals.

       •   Financial Management Area. Objective: Strengthen internal controls.
           Goal: Improve compliance with the Federal Managers’ Financial Integrity
           Act. (FM-5.3)


    Audit Period, Standards, and Locations. We conducted this performance audit from
    November 1996 through June 1998 in accordance with auditing standards issued
    by the Comptroller General of the United States, as implemented by the Inspector
    General, DoD. Accordingly, we included tests of management controls considered
    necessary. We visited or contacted individuals or organizations within DoD.
    Further details are available on request.




                                        16
                                                              Appendix A. Audit Process




Audit Methodology
    The audit identified a total of 49 visits to TRADOC facilities by congressional
    members, their staff, and persons from other organizations. We obtained
    trip-related documentation, dated January 1993 through August 1997, from Army
    OCLL personnel, TRADOC Office of Congressional Liaison personnel, and
    TRADOC personnel associated with the congressional visits. We conducted
    interviews with Army OCLL and headquarters, TRADOC, personnel to include
    the Commanding General of the TRADOC, the TRADOC Chief of Staff, the
    TRADOC Deputy Chief of Staff for Doctrine, the Deputy Director for Doctrine at
    TRADOC, the TRADOC congressional actions representative, and the Chief of
    the House Liaison Office in the Office of Army Legislative Liaison. We also
    reviewed trip itineraries, briefing charts, internal electronic mail messages,
    memorandums, and other available documentation to determine whether the Army
    assessed DoD benefits to be derived from the congressional travel requests, and
    incurred nonreimbursable travel expenses to support the congressional visits.

    Specifically, we reviewed:

           •       Army procedures for documenting congressional travel requests;

           •       the dates, locations, and attendees for each congressional visit; and

           •     the nature of Army briefings that congressional members requested
    and that TRADOC personnel presented.

    We obtained estimated travel support costs that the Army incurred for the five
    congressional training seminars. The Army estimated transportation costs because
    it had destroyed congressional travel documentation for all trips that took place
    before August 1996. The Army OCLL used information retained at TRADOC to
    determine the mode of transportation that should have been used for the visits and
    applied established flight rates to develop estimates. Because the Army had
    destroyed travel records, Army OCLL personnel also estimated lodging costs
    using per diem rates in effect at the time of the trips. TRADOC Office of Internal
    Review and Audit Compliance personnel determined training costs, which include
    salary costs for personnel conducting the training. Headquarters, TRADOC,
    personnel provided the costs for meals and other expenses. See Appendix H for
    information on the details of Army costs for the congressional visits.

    We did not use computer-processed data or statistical sampling procedures to
    review headquarters, TRADOC, personnel, facilities, and services used to train
    members and employees of Congress and others from 1993 through 1997.




                                         17
Appendix A. Audit Process

Prior Audits and Other Reviews
       No prior audits have been performed relating to the use of Army personnel,
       facilities, and services to train members and employees of Congress.


Management Control Program
       DoD Directive 5010.38, "Management Control (MC) Program," August 26, 1996,
       requires DoD organizations to implement a comprehensive system of management
       controls that provides reasonable assurance that programs are operating as
       intended and to evaluate the adequacy of the controls.

       Scope of Review of the Management Control Program. We reviewed the adequacy of
       management controls for providing headquarters, TRADOC, personnel, facilities,
       and services to train members and employees of Congress. Specifically, we
       reviewed Army controls for supporting congressional requests for travel to
       TRADOC facilities.

       Adequacy of Management Controls. We identified a material management control
       weakness, as defined by DoD Directive 5010.38, in the Army.

       The Army did not effectively implement DoD policies governing DoD support for
       travel and assistance for members and employees of Congress. Specifically, the
       Army did not establish effective procedures to ensure that Army OCLL personnel
       assessed the reimbursability of sponsored travel support provided to congressional
       members, their staff, and others before incurring nonreimbursable travel costs.

       The recommendations in this report, if implemented, will help ensure that requests
       for sponsored and nonsponsored nonreimbursable DoD support for congressional
       travel comply with DoD requirements for congressional travel support. A copy of
       the report will be provided to the senior official responsible for management
       controls within the Army.

       Self-Evaluation of Controls. The self-evaluation aspects of the management control
       program were not related to the requests that initiated the audit. Therefore, we
       reviewed those aspects only to the extent that we confirmed that neither TRADOC
       nor the Department of the Army had previously identified or reported the control
       weakness found by this audit.




                                           18
Appendix B. Congressional Correspondence




                                           *




  * Enclosures omitted for length.

                                     19
Appendix B. Congressional Correspondence




                                    20
Appendix B. Congressional Correspondence




 21
Appendix B. Congressional Correspondence




                                    22
Appendix C. Congressional Visits
The 49 congressional visits included in our review represent all trips related to
headquarters, TRADOC, made from 1993 through 1997 by congressional members and
employees. Details follow for each of the visits included in our review.

1. February 4 and 5, 1993, Headquarters, TRADOC, Fort Monroe, Virginia

Representative Newt Gingrich (R-Georgia)

Purpose of congressional visit: TRADOC briefings on lessons learned in Somalia, the
drug war in the Andes, and other DoD issues.

2. April 7, 1993, Headquarters, TRADOC, Fort Monroe, Virginia

Professional Staff Member, Senate Armed Services Committee
Professional Staff Member, Senate Appropriations Committee

Purpose of congressional visit: TRADOC briefings on Virtual Brigade and reconfigurable
simulations for battle laboratories.

3. April 12, 1993, Headquarters, TRADOC, Fort Monroe, Virginia

Professional Staff Member, Senate Armed Services Committee
Professional Staff Member, Senate Appropriations Committee

Purpose of congressional visit: TRADOC briefings on Intravehicular Information Systems
and Army Field Manual 100-5.

4. May 7, 1993, Headquarters, TRADOC, Fort Monroe, Virginia

Representative Ike Skelton (D-Missouri)
Aide, Representative Skelton's office

Purpose of congressional visit: TRADOC Institutional Training Base1 briefings.

5. June 7, 1993, Headquarters, TRADOC, Fort Monroe, Virginia

Representative Robert Scott (D-Virginia)
Aide, Representative Scott's office

Purpose of congressional visit: Defense base realignment and closure meeting with
TRADOC personnel.



See the footnotes at the end of the appendix.


                                            23
Appendix C. Congressional Visits


6. June 10, 1993, Headquarters, TRADOC, Fort Monroe, Virginia

Representative Herbert Batemen (R-Virginia)
Representative Robert Scott (D-Virginia)
Senator John Warner (R-Virginia)
Aide, Senator Warner's office
Aide, Representative Bateman's office

Purpose of congressional visit: Defense base realignment and closure meeting with
TRADOC personnel.

7. July 2, 1993, Headquarters, TRADOC, Fort Monroe, Virginia

Aide, Representative Norman Dicks' office

Purpose of congressional visit: Battle laboratories overview.2

8. July 13, 1993, Headquarters, TRADOC, Fort Monroe, Virginia

Aide, Representative Bateman's office

Purpose of congressional visit: Environmental quality control meeting.

9. August 16, 1993, Headquarters, TRADOC, Fort Monroe, Virginia

Military Legislative Aide, Representative Bateman's office
Two Military Legislative Aides, Representative Scott's office
Military Legislative Aide, Representative Norman Sisisky's office

Purpose of congressional visit: Overview briefings on the Joint Warfighting Center,3
battle laboratories, base operations, support regionalization, and resource management.

10. November 16, 1993, Headquarters, TRADOC, Fort Monroe, Virginia

Professional Staff Member, Senate Armed Services Committee
Professional Staff Member, House Armed Services Committee

Purpose of congressional visit: Orientation briefings for a new minority staff member
assigned to operations and maintenance issues of the House Armed Services Committee.

11. February 4, 1994, Headquarters, TRADOC, Fort Monroe, Virginia

Representative Robert Scott (D-Virginia)

Purpose of congressional visit: Guest speaker at American Black History month event.1

See the footnotes at the end of the appendix.




                                            24
                                                          Appendix C. Congressional Visits


12. February 14, 1994, Headquarters, TRADOC, Fort Monroe, Virginia

Professional Staff Member, House Appropriations Committee

Purpose of congressional visit: Orientation briefings for new staffer, which included a
command overview and a briefing on TRADOC involvement in research, development,
test, and evaluation simulations.

13. February 14, 1994, Headquarters, TRADOC, Fort Monroe, Virginia

Staff Director, Senate Armed Services Committee

Purpose of congressional visit: TRADOC briefings on joint and combined doctrine, battle
laboratories, simulations, and Louisiana Maneuvers.4

14. April 7, 1994, Headquarters, TRADOC, Fort Monroe, Virginia

Representative Herbert Bateman (R-Virginia)

Purpose of congressional visit: Fort Monroe issues. Headquarters, TRADOC, did not
maintain records for the visit.

15. May 6, 1994, Headquarters, TRADOC, Fort Monroe, Virginia

Professional Staff Member, Senate Appropriations Committee
Professional Staff Member, House Appropriations Committee

Purpose of congressional visit: Command overview and TRADOC briefings on battle
laboratories, Louisiana Maneuvers, and Army operations and maintenance.

16. May 24, 1994, Headquarters, TRADOC, Fort Monroe, Virginia

Two Professional Staff Members, House Appropriations Committee, Surveys and
Investigations Staff

Purpose of congressional visit: To discuss costs associated with DoD support of
nongovernmental organizations and activities.

17. July 6, 1994, Headquarters, TRADOC, Fort Monroe, Virginia

Two Professional Staff Members, House Appropriations Committee, Surveys and
Investigations Staff

Purpose of congressional visit: To discuss sustaining base information system programs
and modules.




See the footnotes at the end of the appendix.

                                            25
Appendix C. Congressional Visits


18. November 4, 1994, Headquarters, TRADOC, Fort Monroe, Virginia

Chief of Staff, Representative Gingrich's office
Executive Director to the House Republican Conference
Civilian Advisor to the Congressional Institute
Three Aides, Representative Gingrich's office

Purpose of the congressional visit: TRADOC briefings on doctrine, organizational design,
training, analysis, and integration.

19. November 23, 1994, Headquarters, TRADOC, Fort Monroe, Virginia

Representative Herbert Bateman (R-Virginia)

Purpose of congressional visit: TRADOC briefings on base operations and resources.

20. December 2, 1994, Headquarters, TRADOC, Fort Monroe, Virginia

Military Legislative Aide, Senator John Warner's office

Purpose of congressional visit: Orientation briefings for a new staffer in Senator Warner's
office.

21. January 19 and 20, 1995, Headquarters, TRADOC, Fort Monroe, Virginia

Representative Ike Skelton (D-Missouri)
Aide, Representative Skelton's office

Purpose of congressional visit: Briefing updates on Army Force XXI,5 Joint Warfighting
Center, and Cadet Command.6

22. March 17, 1995, Headquarters, TRADOC, Fort Monroe, Virginia

Chief of Staff to the Speaker of the House
Special Assistant to the Speaker of the House

Purpose of congressional visit: Training -- See report for details.

23. April 10, 1995, Headquarters, TRADOC, Fort Monroe, Virginia

Representative Ron Lewis (R-Kentucky)
State Director, Senator Mitch McConnell's (R-Kentucky) office
Military Legislative Assistant, Senator McConnell's office
Military Legislative Aide, Representative Lewis' office

Purpose of congressional visit: Command overview7 and briefings on TRADOC
resources, the future structure of the Cadet Command, Defense Base Realignment and
Closure 1995, Force XXI operations, and other Army issues.

See the footnotes at the end of the appendix.

                                             26
                                                            Appendix C. Congressional Visits


24. April 20 and 21, 1995, Advanced School for Military Studies and Battle
Command Battle Lab, Fort Leavenworth, Kansas

Chief of Staff to the Speaker of the House
Two Special Assistants to the Speaker of the House
Advisor to the Speaker of the House
Executive Assistant to the Speaker's Chief of Staff

Purpose of congressional visit: Training -- See report for details.

25. April 25, 1995, Headquarters, TRADOC, Fort Monroe, Virginia

Professional Staff Member, House National Security Committee8
National Security Advisor to Representative Bateman's office

Purpose of congressional visit: Command overview and Joint Warfighting Center
briefings.

26. May 5 and 6, 1995, Headquarters, TRADOC, Fort Monroe, Virginia

Representative Newt Gingrich (R-Georgia), Speaker of the House
Two Special Assistants to the Speaker of the House
Military Legislative Aide to the Speaker of the House

Purpose of congressional visit: Briefings on several warfighting concepts.

27. July 5, 1995, Headquarters, TRADOC, Fort Monroe, Virginia

Two Professional Staff Members, House Appropriations Committee, Surveys and
Investigations Staff

Purpose of congressional visit: Sustaining Base Information Systems Equipment Review.

28. August 28 and 29, 1995, Headquarters, TRADOC, Fort Monroe, Virginia

Representative Peter Hoekstra (R-Michigan)
Chief of Staff to House Majority Leader
Executive Director, House Republican Conference
Communication Coordinator for the Speaker of the House
Two Special Assistants to the Speaker of the House
Special Assistant to Representative Hoekstra
President, Congressional Institute
Staff Assistant to Representative Shays

Purpose of congressional visit: Training -- See report for details.



See the footnotes at the end of the appendix.



                                             27
Appendix C. Congressional Visits


29. August 31, 1995, Headquarters, TRADOC, Fort Monroe, Virginia

Two Professional Staff Members, House Appropriations Committee, Surveys and
Investigations Staff

Purpose of congressional visit: To discuss the Army Armored Vehicle Modernization
Plan.

30. November 30 and December 1, 1995, Headquarters, TRADOC, Fort Monroe,
Virginia

Representative Peter Hoekstra (R-Michigan)
Representative Christopher Shays (R-Connecticut)
Representative James M. Talent (R-Missouri)
Representative John D. Hayworth (R-Arizona)
Representative Sue Myrick (R-North Carolina)
Special Assistant to Representative Hoekstra
Two Special Assistants to the Speaker of the House
Counsel for Subcommittee on Rules and Organization of the House
President, Congressional Institute

Purpose of congressional visit: Training -- See report for details.

31. January 29, 1996, Headquarters, TRADOC, Fort Monroe, Virginia

Representative Ike Skelton (D-Missouri)
Aide, Representative Skelton's office

Purpose of congressional visit: Briefing updates on the Cadet Command, Bosnia, training
and leader development, and the Future Schools System.9

32. February 15, 1996, Headquarters, TRADOC, Fort Monroe, Virginia

Senator Dan Coats (R-Indiana)
Chief of Staff to Senator Coats
Aide, Senator Coats' office

Purpose of congressional visit: To visit the Joint Warfighting Center and receive
TRADOC modeling and simulation briefings.

33. March 9, 1996, National Defense University, Fort McNair, Washington, D.C.

Representative Jim Kolbe (R-Arizona) and the following from his staff:
   Three Legislative Assistants
   Field Director
   Chief of Staff
   District Office Manager
   Special Assistant

See the footnotes at the end of the appendix.

                                             28
                                                            Appendix C. Congressional Visits


33. March 9, 1996, National Defense University, Fort McNair, Washington, D.C.
(Cont’d)

   District Aide/Scheduler
   Campaign Manager
   System Manager
   Legislative Director
   District Director
   Five District Aides
   Executive Assistant

Purpose of congressional visit: Training -- See report for details.

34. April 11, 1996, Headquarters, TRADOC, Fort Monroe, Virginia

Four aides, Senator Robb's office

Purpose of congressional visit: Command overview and briefings on Army Force XXI
and combat development.

35. April 11, 1996, Headquarters, TRADOC, Fort Monroe, Virginia

Professional Staff Member, Senate Appropriations Committee

Purpose of congressional visit: To perform a comprehensive study on the Defense
Finance and Accounting System.

36. April 12, 1996, Headquarters, TRADOC, Fort Monroe, Virginia

Representative Robert Scott (D-Virginia)
Military Legislative Aide, Representative Scott's office
Two District Office Aides, Representative Scott's office

Purpose of congressional visit: Command and training overviews.

37. August 5, 1996, Headquarters, TRADOC, Fort Monroe, Virginia

Two Professional Staff Members, House Appropriations Committee, Surveys and
Investigations Staff

Purpose of congressional visit: Briefings on command, control, communications,
computers, and intelligence simulations; the Joint Warfighting Center; Army interaction
with the Joint Command, Control, Communications, Computers, and Intelligence
Simulations and Research Battle Center; the Joint Training and Simulation Center; and
Atlantic Command.




See the footnotes at the end of the appendix.

                                             29
Appendix C. Congressional Visits


38. August 19, 1996, Headquarters, TRADOC, Fort Monroe, Virginia10

Professional Staff Member, House National Security Committee

Purpose of congressional visit: Command update and Army Force XXI and Army After
Next study group11 briefings.

39. August 26, 1996, Headquarters, TRADOC, Fort Monroe, Virginia10

Professional Staff Member, House National Security Committee

Purpose of congressional visit: Command overview and briefings on combat
development, doctrine, training, and resource management.

40. September 26, 1996, Headquarters, TRADOC, Fort Monroe, Virginia10

Four Professional Staff Members, House National Security Committee

Purpose of congressional visit: To meet with focus groups to discuss Army funding,
training, personnel, maintenance, and quality-of-life issues.

41. October 22, 1996, Headquarters, TRADOC, Fort Monroe, Virginia10

Professional Staff Member, Senate Armed Services Committee

Purpose of congressional visit: Orientation briefings for a new staffer.

42. October 29, 1996, Headquarters, TRADOC, Fort Monroe, Virginia

Aide, Representative Skelton's office
Military Legislative Aide, Representative Skelton's office

Purpose of congressional visit: Command, resource, and Army Force XXI overviews.

43. November 19, 1996, Headquarters, TRADOC, Fort Monroe, Virginia

Representative Ron Lewis (R-Kentucky)
Military Legislative Aide, Representative Lewis' office
District Director, Representative Lewis' office
Military Legislative Aide, Senator McConnell's office

Purpose of congressional visit: Briefings on the Reserve Officers' Training Corps, Army
Force XXI, re-engineering update, and FY 1997 budget restrictions.




See the footnotes at the end of the appendix.


                                             30
                                                            Appendix C. Congressional Visits


44. December 9, 1996, Headquarters, TRADOC, Fort Monroe, Virginia10

Minority Staff Director, House Appropriations Committee
Two Professional Staff Members, House Appropriations Committee
Minority Staff Director, House Appropriations Committee, National Security
Subcommittee

Purpose of congressional visit: Command update and future Army briefings.

45. January 24, 1997, Headquarters, TRADOC, Fort Monroe, Virginia

Representative Ike Skelton (D-Missouri)
Military Legislative Assistant, Representative Skelton's office
Legislative Fellow, Representative Skelton's office

Purpose of congressional visit: TRADOC briefing updates and a Cadet Command
briefing.

46. February 7, 1997, Headquarters, TRADOC, Fort Monroe, Virginia

Representative John Murtha (D-Pennsylvania), Ranking Minority Member, House
Appropriations Committee
Two Professional Staff Members, House Appropriations Committee

Purpose of congressional visit: To perform as assessment of the Initial Entry Training
Base.12

47. April 18, 1997, Headquarters, TRADOC, Fort Monroe, Virginia

Legislative Aide, Senator Wendell Ford's (D-Kentucky) office

Purpose of congressional visit: Command update, and briefings on resources, training,
base operations, the Cadet Command, and an Army Warfighting Experiment13 synopsis.

48. May 30, 1997, Headquarters, TRADOC, Fort Monroe, Virginia10

Representative Porter Goss (R-Florida), Chairman, House Permanent Select Committee
on Intelligence
Staff Director, House Permanent Select Committee on Intelligence
Professional Staff Member, House Permanent Select Committee on Intelligence

Purpose of congressional visit: Briefings on Army Warfighting Experiment.

49. June 9, 1997, Headquarters, TRADOC, Fort Monroe, Virginia

Representative Newt Gingrich (R-Georgia), Speaker of the House
Chief of Staff to the Speaker of the House


See the footnotes at the end of the appendix.


                                             31
Appendix C. Congressional Visits


49. June 9, 1997, Headquarters, TRADOC, Fort Monroe, Virginia (Cont’d)

Chief of Staff for the Speaker's District Office
Assistant to the Speaker of the House
Policy Director to Representative Richard Armey
Communications Director for the Speaker of the House
Director of Planning for the Speaker of the House
Assistant to the Speaker of the House
Press Secretary to the Speaker of the House
Military Legislative Aide to the Speaker of the House

Purpose of congressional visit: Briefings on the Army After Next study group,
information operations, training Army Force XXI, modeling and simulation, and
wargaming.


1Institutional   Training Base briefings discussed the importance of institutional training and development
for readiness.

2Battlelaboratories are organizations established to experiment with changing methods of warfare to
maintain the Army's edge on the battlefield.

3The  Joint Warfighting Center is a subordinate element of the Joint Chiefs of Staff to assist in preparation
for joint and multinational operations through conceptualization, development, and assessment of current
and future joint doctrine.

4Louisiana Maneuvers is a senior leadership process for energizing and focusing the forces of change
while simultaneously maintaining the Army's strength and readiness.

5Force    XXI is the process for redesigning the Army for the early twenty-first century.

6Cadet Command is the Army headquarters responsible for the Senior Reserve Officer training and Junior
Officer Training programs.

7A TRADOC command overview is a standard briefing on TRADOC missions, functions, scope, and
scale.

8Formerly    known as the House Armed Services Committee.

9The Future Schools System is part of a comprehensive study of the Army's institutional training systems
and the changes in those systems.

10The trip was formally requested by a congressional committee chairman. Because the trip was
committee-directed, the Army provided nonsponsored, nonreimbursable travel support. The Army OCLL
had retained files for the trip.

11The Army After Next study group is a project for looking far into the future at the battlefield of the 2015
to 2025 timeframe.



                                                       32
                                                                     Appendix C. Congressional Visits


12Initial
        Entry Training is the basic training, advanced individual training, and one-station-unit-training
system for new Army recruits.

13Advanced Warfighting Experiments focused on force improvements in Army doctrine, training, leader
development, organization design, materiel, and soldier system requirements.




                                                    33
Appendix D. TRADOC Briefing Charts Used for
Training on Principles of Doctrine Development
and Operational Art




                      34
Appendix D. TRADOC Briefing Charts Used for Training on Principles of Doctrine
                                            Development and Operational Art




                                     35
Appendix D. TRADOC Briefing Charts Used for Training on Principles of Doctrine
Development and Operational Art




                                      36
Appendix D. TRADOC Briefing Charts Used for Training on Principles of Doctrine
                                            Development and Operational Art




                                     37
Appendix D. TRADOC Briefing Charts Used for Training on Principles of Doctrine
Development and Operational Art




                                      38
Appendix D. TRADOC Briefing Charts Used for Training on Principles of Doctrine
                                            Development and Operational Art




                                     39
Appendix D. TRADOC Briefing Charts Used for Training on Principles of Doctrine
Development and Operational Art




                                      40
Appendix D. TRADOC Briefing Charts Used for Training on Principles of Doctrine
                                            Development and Operational Art




                                     41
Appendix D. TRADOC Briefing Charts Used for Training on Principles of Doctrine
Development and Operational Art




                                      42
Appendix D. TRADOC Briefing Charts Used for Training on Principles of Doctrine
                                            Development and Operational Art




                                     43
Appendix D. TRADOC Briefing Charts Used for Training on Principles of Doctrine
Development and Operational Art




                                      44
Appendix D. TRADOC Briefing Charts Used for Training on Principles of Doctrine
                                            Development and Operational Art




                                     45
Appendix D. TRADOC Briefing Charts Used for Training on Principles of Doctrine
Development and Operational Art




                                      46
Appendix D. TRADOC Briefing Charts Used for Training on Principles of Doctrine
                                            Development and Operational Art




                                     47
Appendix D. TRADOC Briefing Charts Used for Training on Principles of Doctrine
Development and Operational Art




                                      48
Appendix D. TRADOC Briefing Charts Used for Training on Principles of Doctrine
Development and Operational Art




                                      49
Appendix F. March 1996 Memorandum




                    51
Appendix G. House Republican Strategic
Framework Document




                      52
Appendix G. House Republican Strategic Framework Document




                  53
Appendix G. House Republican Strategic Framework Document




                                   54
Appendix G. House Republican Strategic Framework Document




                  55
Appendix G. House Republican Strategic Framework Document




                                   56
Appendix G. House Republican Strategic Framework Document




                  57
Appendix G. House Republican Strategic Framework Document




                                   58
Appendix G. House Republican Strategic Framework Document




                  59
Appendix G. House Republican Strategic Framework Document




                                   60
Appendix G. House Republican Strategic Framework Document




                  61
Appendix G. House Republican Strategic Framework Document




                                   62
Appendix G. House Republican Strategic Framework Document




                  63
Appendix H. Army Costs for Congressional
Visits
The Army identified the following estimated costs for the five congressional visits to Army
facilities discussed in the report.

     Date             Travel1    Lodging2             Meals3    Training4     Other           Total

March 1995         05                   --        $     18       $ 323           --       $     341
April 1995   $4,286                 $ 240              1926        797           --           5,515
August 1995   2,0257                  557              638         568           --           3,788
November 1995 2,851                   660              386         623           --           4,520
March 1996        --                    --             275         449        $2988           1,022
 Total               $9,162        $1,457         $1,509        $2,760        $298       $15,186
1The Army OCLL estimated the travel costs because the Army destroyed congressional travel
documentation after 1 year. The Army OCLL used information retained at TRADOC to determine the
mode of transportation that should have been used for the visits and applied established flight rates to
develop estimates. Military aircraft was used for each of the visits.

2The   Army OCLL estimated lodging costs using lodging per diem rates in effect at the time of the trips.

3Most of the meal costs were actual costs obtained from TRADOC. The figures do not include the cost of
meals of DoD personnel who accompanied members of Congress and their staffs.

4The  TRADOC Office of Internal Review and Audit Compliance determined training costs, which include
salary costs for personnel conducting the briefings.

5A TRADOC shuttle aircraft provided travel for the congressional delegation. The shuttle flies a
scheduled route and would have flown to TRADOC whether or not the members of Congress were aboard.

6Neither
       the Army OCLL nor TRADOC retained documentation for the cost of meals at Fort
Leavenworth. The amount is an estimate based on the meals and per diem rate at the time of the trip.

7The estimate does not include Representative Hoekstra's transportation costs. The Army OCLL could not
determine whether the Army incurred the cost.

8The amount represents the costs that TRADOC incurred to send an Army officer from Fort Monroe to
Fort McNair to provide briefings.




                                                      64
Appendix I.             Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense (Command Control, Communications, and Intelligence)
Assistant Secretary of Defense (Force Management Policy)
Assistant Secretary of Defense (Legislative Affairs)
Assistant Secretary of Defense (Public Affairs)
General Counsel
Director, Defense Logistics Studies Information Exchange

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Chief of Legislative Liaison
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Chief of Legislative Affairs
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Director, Office of Legislative Liaison
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Information Systems Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




                                          65
Appendix I. Report Distribution

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
  General Accounting Office

Chairman and ranking minority member of each of the following congressional committees
  and subcommittees:

Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on National Security, Committee on Appropriations
House Committee on Government Reform and Oversight
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform and Oversight
House Subcommittee on National Security, International Affairs, and Criminal Justice,
  Committee on Government Reform and Oversight
House Committee on National Security

Honorable Dan Coats, U.S. Senate
Honorable Wendell H. Ford, U.S. Senate
Honorable Charles E. Grassley, U.S. Senate
Honorable Carl Levin, U.S. Senate
Honorable Mitch McConnell, U.S. Senate
Honorable Charles S. Robb, U.S. Senate
Honorable John W. Warner, U.S. Senate
Honorable Richard K. Armey, U.S. House of Representatives
Honorable Herbert H. Bateman, U.S. House of Representatives
Honorable Norman D. Dicks, U.S. House of Representatives
Honorable Barney Frank, U.S. House of Representatives
Honorable Newt Gingrich, U.S. House of Representatives
Honorable Porter J. Goss, U.S. House of Representatives
Honorable John D. Hayworth, Jr., U.S. House of Representatives
Honorable Peter Hoekstra, U.S. House of Representatives
Honorable Jim Kolbe, U.S. House of Representatives
Honorable Ron Lewis, U.S. House of Representatives
Honorable George Miller, U.S. House of Representatives
Honorable David Minge, U.S. House of Representatives
Honorable John P. Murtha, U.S. House of Representatives
Honorable Sue Myrick, U.S. House of Representatives
Honorable Robert C. Scott, U.S. House of Representatives
Honorable Christopher Shays, U.S. House of Representatives
Honorable Norman Sisisky, U.S. House of Representatives
Honorable Ike Skelton, U.S. House of Representatives
Honorable James M. Talent, U.S. House of Representatives
Honorable Esteban E. Torres, U.S. House of Representatives




                                            66
Part III - Management Comments
Department of the Army Comments




                68
     Department of the Army Comments




69
Department of the Army Comments




                            70
     Department of the Army Comments




71
Department of the Army Comments




                            72
     Department of the Army Comments




73
Audit Team Members

This report was prepared by the Acquisition Management Directorate, Office of
the Assistant Inspector General for Auditing, DoD.

Thomas F. Gimble
Salvatore D. Guli
Deborah L. Carros
William H. Kimball
Virginia G. Rogers
Harold F. Cleary
Jennifer L. Zucal
Wendy Stevenson
